                                                              Issue Date
                                                                July 28, 2009
                                                              Audit Report Number
                                                                2009-PH-1010




TO:        David H. Stevens, Assistant Secretary for Housing – Federal Housing
            Commissioner, H



FROM:      John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA

SUBJECT:   J.P. Morgan Chase Bank, Newark, Delaware, Generally Complied with
            HUD’s Origination and Quality Control Requirements for FHA-Insured Single-
            Family Loans



                                 HIGHLIGHTS

 What We Audited and Why

           We audited the Newark, Delaware, branch office (branch office) of J.P. Morgan
           Chase bank (J.P. Morgan Chase), a supervised direct endorsement lender
           approved to originate Federal Housing Administration (FHA) single-family
           mortgage loans. We selected the branch office because its default rate was above
           the state’s average default rate. Our objective was to determine whether J.P.
           Morgan Chase complied with U.S. Department of Housing and Urban
           Development (HUD) requirements in the origination and quality control review of
           FHA-insured single-family loans.


 What We Found

           J.P. Morgan Chase generally complied with HUD requirements in the origination
           and quality control review of FHA-insured single-family loans. However, a
           review of eight sample loans valued at approximately $1.3 million showed that its
           branch office did not underwrite one of the loans, originally valued at more than
                 $157,000, in accordance with HUD requirements. The branch office approved the
                 loan based on incorrect qualifying ratios.

                 In addition, J.P. Morgan Chase did not fully implement quality control procedures
                 as required for one improperly underwritten loan out of five loans it reviewed1 as
                 part of its quality control process. These deficiencies occurred because the branch
                 office did not exercise due care in the underwriting of the deficient loans and J.P.
                 Morgan Chase did not always implement quality control procedures as required.
                 As a result, the FHA insurance fund was exposed to an unnecessarily increased
                 risk.

    What We Recommend

                 We recommend that HUD’s Assistant Secretary for Housing – Federal Housing
                 Commissioner require J.P. Morgan Chase to indemnify HUD $193,949 2 for one
                 loan it issued contrary to HUD’s loan origination requirements; reimburse
                 $26,352 for a loss from a claim incurred by HUD on another improperly
                 underwritten loan; and fully enforce its policies, procedures, and controls to
                 ensure that its staff consistently follows HUD requirements.

                 For each recommendation without a management decision, please respond and
                 provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                 Please furnish us copies of any correspondence or directives issued because of the
                 audit.

    Auditee’s Response


                 We provided a draft report to J.P. Morgan Chase on June 18, 2009. We discussed
                 the audit results with J.P. Morgan Chase during the audit and at an exit conference
                 on June 23, 2009. J.P. Morgan Chase provided written comments to our draft
                 report on July 7, 2009. J.P. Morgan Chase generally agreed with our results
                 pertaining to its loan origination activity but objected to our conclusions on its
                 quality control plan and implementation of quality control procedures. The
                 complete text of the response, along with our evaluation of that response, can be
                 found in appendix B of this report.




1
 This loan was originally valued at more than $197,000.
2
 This amount is the unpaid principal balance for the loan. The projected loss to HUD is $81,459 based on HUD’s
average insurance fund loss rate of 42 percent.




                                                       2
                             TABLE OF CONTENTS


Background and Objective                                                           4

Results of Audit
        Finding: J.P. Morgan Chase Generally Complied with HUD’s Origination and   5
        Quality Control Requirements for FHA-Insured Single-Family Loans

Scope and Methodology                                                              10

Internal Controls                                                                  12

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use             14
   B.   Auditee Comments and OIG’s Evaluation                                      15
   C.   Schedule of Case File Discrepancies                                        19
   D.   Narrative Case Presentations                                               20




                                              3
                       BACKGROUND AND OBJECTIVE

The U.S. Department of Housing and Urban Development’s (HUD) strategic plan states that its
mission is to increase homeownership, support community development, and increase access to
affordable housing free from discrimination.

The National Housing Act, as amended, established the Federal Housing Administration (FHA),
an organizational unit within HUD. FHA provides insurance for lenders against loss on single-
family home mortgages and multifamily homes including manufactured homes and hospitals. It
is the largest insurer of mortgages in the world, insuring more than 34 million properties since its
inception in 1934. FHA mortgage insurance provides lenders with protection against losses as
the result of homeowners defaulting on their mortgage loans. The lenders bear less risk because
FHA will pay a claim to the lender in the event of a homeowner’s default. Loans must meet
certain requirements established by FHA to qualify for insurance. As of February 2009, FHA’s
market share of single-family insured mortgages was 68 percent.

HUD’s direct endorsement program authorizes approved lenders to underwrite loans without
HUD’s prior review and approval. HUD requires lenders to use its Neighborhood Watch system
to monitor and evaluate their performance, and has many sanctions available for taking actions
against lenders or others who abuse the direct endorsement program.

J.P. Morgan Chase is a direct endorsement lender for FHA loans. Its corporate office is located
in Iselin, New Jersey, and its quality control reviews are performed internally at its office
locations in Columbus, Ohio and Jacksonville, Florida. Its Newark, Delaware, branch office
(branch office) originated 36 FHA loans valued at approximately $5.8 million from July 2006
through June 2008 that defaulted within the first two years. We sampled and reviewed case files
for eight of the loans valued at approximately $1.3 million.

Our objective was to determine whether J.P. Morgan Chase complied with HUD requirements in
the origination and quality control review of FHA-insured single-family loans.




                                                 4
                                  RESULTS OF AUDIT

Finding: J.P. Morgan Chase Generally Complied with HUD’s
Origination and Quality Control Requirements for FHA-Insured Single-
Family Loans
J.P. Morgan Chase generally complied with HUD requirements in the origination and quality
control review of FHA loans. However, its branch office did not originate one of eight loans
reviewed in accordance with HUD requirements. The branch office qualified the borrower based
on incorrect ratios. In addition, J.P. Morgan Chase did not refer to HUD significant underwriting
deficiencies related to one of five loans it reviewed as part of its quality control process. These
deficiencies occurred because the branch office did not exercise due care in underwriting the
deficient loans and J.P. Morgan Chase did not always implement quality control procedures as
required. As a result, the FHA insurance fund was exposed to an unnecessarily increased risk
and HUD incurred a loss from a claim paid in the amount of $26,352. J.P. Morgan Chase should
indemnify HUD $193,9493 for one loan, and reimburse HUD for the loss it incurred on the other
loan.



    The Branch Office Incorrectly
    Calculated Qualifying Ratios


                According to HUD requirements,4 lenders are required to use ratios to determine
                whether a borrower can reasonably be expected to meet the expenses involved in
                homeownership and otherwise provide for the family. Lenders are required to
                compute two ratios: the mortgage payment expense to effective income (front
                ratio), which should not exceed 31 percent, and the total fixed payment to
                effective income (back ratio), which should not exceed 43 percent. HUD5 also
                requires lenders to include the monthly housing expense and all other additional
                recurring charges extending 10 months or more in computing a borrower’s debt-
                to-income ratios. Recurring charges include but are not limited to installment
                accounts. Debts lasting less than 10 months must also be counted if the amount of
                the debt affects the borrower’s ability to make the mortgage payment during the
                months immediately after loan closing.

                In one case (case number 071-1021875), the branch office qualified a borrower
                based on incorrect ratios because it erroneously overstated the borrower’s

3
  See footnote 2.
4
  HUD Handbook 4155.1, REV-5, paragraph 2-12, and HUD Mortgagee Letter 2005-16
5
  HUD Handbook 4155.1, REV-5, paragraph 2-11A



                                                   5
                 effective monthly income and did not consider two debts that were listed on the
                 borrower’s credit report. As a result, the loan was approved based on incorrect
                 debt-to-income ratios. If the branch office had used the correct income and debt
                 amounts, the borrower would not have qualified for the loan because the
                 mortgage payment expense-to-income ratio would have been 36.85 percent,
                 which exceeds the 31 percent allowed by HUD, and the total fixed payment-to-
                 income ratio would have been almost 64 percent compared with HUD’s 43
                 percent limit. HUD paid a claim that resulted in a loss of $26,3526 for this loan.

    J.P. Morgan Chase Needs to
    Update its Quality Control Plan


                 According to HUD requirements,7 approved lenders must have and maintain a
                 quality control plan for the origination and servicing of insured mortgages. The
                 quality control plan must be a prescribed function of the lender’s operations and
                 assure that the lender maintains compliance with HUD requirements and its own
                 policies and procedures. Further, HUD requirements8 indicate the specific
                 minimum elements that must be included in a lender’s quality control plan.

                 J.P. Morgan Chase’s quality control plan did not include all the elements required
                 by HUD. The quality control plan did not address key elements to determine
                 whether

                          Loan documents requiring signature (other than blanket verification
                          releases) were signed by the borrower or employee(s) of the lender only
                          after completion and that all corrections were initialed by the borrower or
                          employee(s) of the lender;
                          All required loan processing, underwriting, and legal documents were
                          included in loan files;
                          The seller acquired the property at the time of or soon before closing,
                          indicating a possible property “flip”;
                          The borrower transferred the property at the time of closing or soon after
                          closing, indicating the possible use of a “straw buyer” in the transaction;
                          and
                          All items requiring documentation had been properly evidenced and
                          retained in the file.

                 J.P. Morgan Chase stated that its quality control reviews addressed the elements
                 noted above and provided us examples of its checklists which included these
                 elements. However to ensure that these elements are consistently addressed and

6
  HUD paid a claim for preforeclosure sale loss mitigation on July 15, 2007.
7
  HUD Handbook 4060.1, REV-2, paragraph 7-1
8
  HUD Handbook 4060.1, REV-2, paragraph 7-7



                                                         6
                 that HUD is fully protected from unacceptable risk and guarded against errors,
                 omissions, and fraud, J.P. Morgan Chase should update its quality control plan to
                 reflect the minimum elements required by HUD. One way it can accomplish this
                 would be to incorporate its comprehensive checklists directly into its quality
                 control plan.

     J.P. Morgan Chase Did Not
     Always Implement Its Quality
     Control Plan as Required


                 HUD requirements9 state that quality control review findings must be reported to
                 lenders’ senior management within a month of completion of the initial report and
                 that management must take prompt action to deal appropriately with material
                 findings. The final report or an addendum must identify actions being taken with
                 regard to findings, the timetable for their completion, and planned follow-up
                 activities. HUD requirements10 also state that findings discovered during quality
                 control reviews should be reported to HUD within 60 days of the initial discovery.

                 J.P. Morgan Chase did not implement quality control procedures as required for
                 one (case number 071-1054663) of five loans reviewed to test the implementation
                 of its quality control plan. This loan is currently in delinquent status and was not
                 one of the eight sample loans reviewed. There were significant underwriting
                 deficiencies noted in relation to the loan including income and debt ratios in
                 excess of HUD requirements without compensating factors, a credit report
                 indicating late payments on 16 separate accounts over an 18-month period, and
                 year-to-date earnings that did not support the income used to qualify the
                 borrower. J.P. Morgan Chase reprimanded the responsible underwriter but did
                 not report the findings to HUD within 60 days of discovery. HUD paid a partial
                 claim of $8,05111 for this loan.

                 J.P. Morgan Chase’s quality assurance staff also reviewed the case in which we
                 determined that the qualifying ratios were incorrect but failed to identify the issue.

     J.P. Morgan Chase Did Not
     Always Exercise Due Care and
     Follow Required Procedures

                 The loan origination deficiencies noted occurred because branch office staff did
                 not exercise due care in the underwriting of the loans. The quality control issues

9
  HUD Handbook 4060.1, REV-2, paragraph 7-3I
10
   HUD Handbook 4060.1, REV-2, paragraph 7-3J
11
   HUD paid a partial claim for loss mitigation.



                                                   7
                  occurred because J.P. Morgan Chase did not always implement quality control
                  procedures as required. According to HUD requirements,12 one of the goals of
                  quality control is to ensure compliance with FHA’s and the lender’s own
                  origination or servicing requirements throughout its operations. Also, J.P. Morgan
                  Chase’s quality control plan for early payment defaults indicates that part of its
                  quality control review process includes a detailed review for accuracy and validity
                  of documentation for each loan, as well as a re-underwriting of the loan for credit
                  risk factors.

                  It is important for J.P. Morgan Chase to ensure that its staff exercises due care in
                  underwriting FHA loans. It must also update and implement its quality control
                  plan in accordance with HUD requirements so that it can accurately assess its
                  origination and servicing processes and take appropriate measures as needed to
                  prevent instances of noncompliance with HUD’s and its own requirements.

     Conclusion

                  J.P. Morgan Chase generally complied with HUD requirements in its origination
                  and quality control review of FHA loans. However its branch office did not
                  comply with HUD requirements in originating one of eight loans reviewed. In
                  addition, J.P. Morgan Chase did not always implement quality control procedures
                  as required. These deficiencies occurred because the branch office did not always
                  exercise due care in underwriting and J.P. Morgan Chase did not always
                  implement quality control procedures as required. As a result, the FHA insurance
                  fund was exposed to an unnecessarily increased risk and HUD incurred a loss
                  from a claim paid in the amount of $26,352 on one loan. Therefore, J.P. Morgan
                  Chase should indemnify HUD $193,949 13 and reimburse HUD for the loss it
                  incurred (see appendixes C and D for more detail).

     Recommendations



                  We recommend that the Assistant Secretary for Housing – Federal Housing
                  Commissioner require J.P. Morgan Chase to

                  1A.     Indemnify HUD $193,949 for one loan which it issued contrary to HUD’s
                          loan origination requirements.




12
     HUD Handbook 4060.1, REV-2, paragraph 7-2
13
     See footnote 2.



                                                    8
                  1B.     Reimburse HUD $26,352 for the loss incurred from a claim paid on one
                          loan which it issued contrary to HUD requirements.14

                  1C.     Update its quality control plan to reflect the minimum elements required
                          by HUD.

                  1D.     Enforce its policies, procedures, and controls to ensure that its staff
                          consistently follows HUD’s and its own requirements in the underwriting
                          and quality control review of FHA loans.




14
     Case number 071-1021875



                                                   9
                         SCOPE AND METHODOLOGY

We reviewed lenders with high default rates and selected the Newark, Delaware, branch of J.P.
Morgan Chase because its percentage of defaults within two years was 5.9 percent, compared
with the Delaware state average of 4.6 percent.

We ran queries in HUD’s Neighborhood Watch system to identify the number of defaulted loans
within the first two years and the payments made against those loans for the branch office.
HUD’s Neighborhood Watch system is a web-based software application that displays loan
performance data for lenders and appraisers, by loan types and geographic areas using FHA-
insured single-family loan information. The loan information is displayed for a two-year
origination period and is updated on a monthly basis. The information on defaulted loans
includes current defaults, and defaults within the first and first two years of endorsement. HUD
requires lenders to use the Neighborhood Watch system to monitor and evaluate their
performance.

The branch office issued 36 FHA loans, valued at approximately $5.8 million, that defaulted
within the first two years. After eliminating loans that were refinanced and terminated and loans
with more than 12 payments before default, 24 defaulted loans remained. The 24 loans, valued
at more than $3.8 million defaulted after 12 payments or fewer. We sampled and reviewed case
files for 8 of the 24 loans valued at approximately $1.3 million. To determine whether the
branch office complied with HUD regulations, procedures, and instructions in the origination and
quality control review of FHA loans, we performed the following:

       Reviewed applicable HUD handbooks and mortgagee letters,

       Examined records and related documents for J.P. Morgan Chase,

       Reviewed case files for eight sample loans,

       Reviewed J.P. Morgan Chase’s quality control plan and its implementation of the plan,
       and

       Conducted interviews with officials and employees of J.P. Morgan Chase and employees
       of HUD’s Quality Assurance Division.

We reviewed J.P. Morgan Chase’s implementation of its quality control plan by reviewing the
results of its quality control reviews of five early payment default (EPD) loans in its Quality
Assurance report dated December 4, 2008. One of the loans was included in the eight sample
cases we reviewed.




                                               10
We relied in part on data maintained by HUD in the Neighborhood Watch system. Although we
did not perform a detailed assessment of the reliability of the data, we performed a minimal level
of testing and found the data adequately reliable for our purposes.

Our review covered the period July 2006 through June 2008.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                11
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

       Program operations,
       Relevance and reliability of information,
       Compliance with applicable laws and regulations, and
       Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined that the following internal controls were relevant to our audit
              objectives:

                      Loan origination process – Policies and procedures that management has in
                      place to reasonably ensure that the loan origination process complies with
                      HUD program requirements.

                      Quality control plan – Policies and procedures that management has in place
                      to reasonably ensure implementation of HUD’s quality control requirements.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe that the following items are significant weaknesses:

                      J.P. Morgan Chase did not always operate in accordance with HUD
                      requirements as they relate to loan issuance or origination.



                                               12
J.P. Morgan Chase did not always implement quality control procedures in
accordance with HUD requirements.




                        13
                                    APPENDIXES


Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                  Recommendation               Ineligible   Funds to be put
                         number                   costs1/   to better use 2/

                                 1A                                 $81,459
                                 1B             $26,352




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest subsidy costs not incurred by implementing recommended
     improvements, avoidance of unnecessary expenditures noted in preaward reviews, and
     any other savings that are specifically identified. In this instance, implementation of our
     recommendation to indemnify loans that were not originated in accordance with HUD
     requirements will reduce the risk of loss to the FHA insurance fund. The above amount
     reflects HUD statistics, which show that FHA, on average, loses 42 percent of the claim
     paid for each property (see appendix C).




                                              14
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         15
Comment 1



Comment 2




Comment 3




Comment 3



Comment 3




            16
Comment 4
            Comment 4




               17
                         OIG Evaluation of Auditee Comments

Comment 1   Despite the fact that the subject underwriter is no longer employed with the
            company, J.P. Morgan Chase still needs to enforce its policies, procedures, and
            controls to ensure that its staff consistently follows HUD’s and its own
            requirements.

Comment 2   According to HUD requirements, quality control review findings must be reported
            to lenders’ senior management within a month of completion of the initial report
            and management must take prompt action to deal appropriately with material
            findings. The final report or an addendum must identify actions being taken with
            regard to findings, the timetable for their completion, and planned follow-up
            activities. Although J.P. Morgan Chase provided documentation indicating that it
            reprimanded the underwriter of the deficient loan, it did not provide any evidence
            to show the action(s) taken or being taken to address the findings pertaining to the
            deficient loan, a timetable for the completion of the action(s), and any planned
            follow-up activities.

            Also, HUD requires mortgagees to immediately report serious violations and
            report other findings within 60 days of the initial discovery. The loan in question
            had significant underwriting deficiencies that warrant a request that HUD be
            indemnified. However J.P. Morgan Chase did not report the deficiencies to HUD
            as required. This is evidence of an instance in which required quality control
            procedures were not fully implemented.

Comment 3   The overall conclusion of our report is that J.P. Morgan Chase generally complied
            with HUD requirements in the origination and quality control review of FHA-
            insured loans. However, we reviewed J.P. Morgan Chase’s quality control plan
            for 19 specific elements required by HUD and five were missing. As discussed in
            the report, J.P. Morgan Chase provided separate checklists which reflected the
            required missing elements. In a discussion with a J.P. Morgan Chase manager
            during the audit, the manager agreed that the missing elements should be
            incorporated into the plan. We maintain that J.P. Morgan Chase should update its
            quality control plan so that it reflects all the minimum elements required by HUD
            to ensure that they are consistently addressed.

Comment 4   We reviewed the referenced documentation which J.P. Morgan Chase had
            previously provided, and made revisions as appropriate to our initial draft report.
            We have again reviewed the submitted documentation along with J.P. Morgan
            Chase’s response and determined that no further changes to the report are
            warranted.




                                             18
Appendix C

             SCHEDULE OF CASE FILE DISCREPANCIES




                                                                   Quality
                      Unpaid                  High     Income      control
     Case Mortgage principal 42% loss Claim qualifying   not  Poor plan not
    number amount balance rate* paid** ratios supported credit followed
      071-
    1021875 $157,256 $155,319         $26,352   X
      071-
    1054663 $197,113 $193,949 $81,459           X         X    X      X
     Totals $354,369 $349,268 $81,459 $26,352


* This amount was calculated by taking 42 percent of the unpaid principal balance for the loans.
On average, HUD loses 42 percent of the claim amount paid.

** This amount represents a claim paid by HUD in June 2007 for the related property. A
preforeclosure sale was completed in May 2007 for the home in case number 071-1021875. The
home sale price of $150,000 was less than the unpaid principal balance.

Note: The issues related to the second case (071-1054663) were identified by J.P. Morgan Chase
during its quality control review of the loan. This loan was reviewed as part of our assessment of
J.P. Morgan Chase’s quality control process, and was not one of the eight sample loans
reviewed.




                                               19
Appendix D

                     NARRATIVE CASE PRESENTATIONS


Case number: 071-1021875

Mortgage amount: $157,256

Date of loan closing: July 24, 2006

Status: Preforeclosure sale completed

Payments before first default reported: One

Unpaid principal balance: $155,319

Summary:

The branch office incorrectly calculated qualifying ratios, and, therefore, the borrower’s debt-to-
income ratios exceeded the allowed limits.

Pertinent Details:

HUD Handbook 4155.1, REV-5, paragraph 2-11A, requires lenders to include the monthly
housing expense and all other additional recurring charges extending 10 months or more in
computing a borrower’s debt-to-income ratios. Recurring charges include but are not limited to
installment accounts. Debts lasting less than 10 months must also be counted if the amount of
the debt affects the borrower’s ability to make the mortgage payment during the months
immediately after loan closing. Paragraph 2-12 states that ratios are used to determine whether
the borrower can reasonably be expected to meet the expenses involved in homeownership and
otherwise provide for the family. The lender must compute two ratios: mortgage payment
expense to effective income should not exceed 29 percent, and total fixed payment to effective
income should not exceed 41 percent. Mortgagee Letter 2005-16 increased the qualifying ratios
to 31 and 43 percent, respectively, for manually underwritten mortgages for which the direct
endorsement underwriter must make the credit decision.

The branch qualified a borrower based on incorrect ratios because it erroneously overstated the
borrower’s effective monthly income and did not consider two debts that were on the borrower’s
credit report. As a result, the loan was approved based on incorrect debt-to-income ratios. If the
lender had used the correct income and debt amounts, the borrower would not have qualified for
the loan because the mortgage payment expense-to-income ratio would have been 36.85 percent,



                                                20
which exceeds the 31 percent allowed by HUD, and the total fixed payment-to-income ratio
would have been almost 64 percent compared with HUD’s 43 percent limit. A preforeclosure
sale was completed in May 2007 for the home in this case. The home was sold for $150,000.
HUD paid a claim for preforeclosure sale loss mitigation in July 2007.




                                             21
Case number: 071-1054663

Mortgage amount: $197,113

Date of loan closing: October 31, 2007

Status: Delinquent

Payments before first default reported: Four

Unpaid principal balance: $193,949

Summary:

J.P. Morgan Chase did not report quality control findings to HUD as required. Quality control
findings for the subject loan included issues with qualifying ratios, supportability of income, and
the borrower’s creditworthiness.

Pertinent Details:

HUD Handbook 4060.1, REV-2, paragraph 7-3I, requires lenders to take prompt action to deal
appropriately with material quality control review findings. The final quality control review
report or an addendum must identify actions being taken with regard to findings, the timetable
for their completion, and planned follow-up activities. Paragraph 7-3J states that findings
discovered during quality control reviews should be reported to HUD within 60 days of the
initial discovery.

J.P. Morgan Chase did not implement quality control procedures as required for the subject loan.
Its quality control review of the loan revealed significant underwriting deficiencies including
income and debt ratios in excess of HUD’s allowed limits without compensating factors, year-to-
date earnings that did not support the income used to qualify the borrower, and a credit report
indicating late payments on 16 separate accounts within 18 months of closing. J.P. Morgan
Chase had identified these issues as of December 2008 but did not report them to HUD as
required. HUD paid a partial claim of $8,051 for loss mitigation on this loan.




                                                22
